                OFFICE OF INSPECTOR GENERAL

 FINANCIAL MANAGEMENT SYSTEM &
     COMPLIANCE EVALUATION

                                    ON SELECTED
                                   NEA GRANTS TO

                    Americans for the Arts, Inc.
                                      Washington, DC

                          REPORT NO. SCE-12-05
                                    September 4, 2012




                                 REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                INTRODUCTION
BACKGROUND
Americans for the Arts (AFTA), founded in 1960, is a nonprofit organization for
advancing the arts and arts education. With offices in Washington, DC and New York
City, NY, AFTA provides an array of programs that meet the needs of over 150,000
members and stakeholders. AFTA is dedicated to representing and serving local
communities for every American to participate in and appreciate all forms of the arts.

OBJECTIVE AND SCOPE
The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA), Office of Inspector General (OIG) is to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB) and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms). In addition, we evaluated the recipient’s
compliance with OMB and NEA guidance for the management of the American
Reinvestment and Recovery Act of 2009 (Recovery Act) funds.

The Recovery Act provided $50 million to the NEA to be distributed in direct grants to
fund art projects and activities which preserve jobs in the nonprofit art sectors threatened
by the decline in philanthropic and other support during the current economic downturn.
Consistent with the language in the Recovery Act, eligible projects are generally limited
to salary support and fees for artists or contracted personnel.

The review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspections and Evaluations, as applicable.

During the period under review, AFTA had nine NEA grants opened or closed within the
last three years with awards totaling $368,000. We reviewed three of the nine grants in
which NEA funds had been drawn down and costs had been reported: Grant No. 09-
6200-7035 in the amount of $20,000, Grant No. 09-6288-7063 in the amount of $50,000,
and Grant No. 10-6200-7010 in the amount of $48,000.

PRIOR AUDIT COVERAGE

During the past five years, the NEA OIG has not issued any audit reports on Federal
grants awarded to the AFTA. As of our site visit on July 17, 2012, the most recent
independent auditor's report on AFTA was for the year ended December 31, 2010. This
audit was conducted by Tate & Tryon, Certified Public Accountants, which issued an
unqualified (clean) opinion. AFTA was not subject to the audit requirements of OMB
Circular A-133.


                                                                                           2
                        RESULTS OF EVALUATION
Our evaluation concluded that AFTA did not comply with the financial management
system requirements established by OMB and NEA for Federal awards. AFTA did not
separately identify Federal funds in its financial system. AFTA did not have procedures
in place to ensure that payments would not be made to contractors or recipients that were
debarred or suspended from receiving Federal assistance. AFTA also did not have
written policies and procedures for management of Federal awards.

                       FINANCIAL MANAGEMENT
RECOVERY ACT AWARD
AFTA received $50,000 in Recovery Act funds from NEA to support salary costs.
During our site visit, AFTA provided an expenditure listing that did not separately
identify the Recovery Act grant from other Federal awards. Federal awards were
identified as "Grants-Federal;" therefore, we were unable to separately identify the
Recovery Act award from other Federal awards. Recovery Act fund recipients are
required by OMB and NEA to separately identify the source and application of Federal
funds, including Recovery Act funds.

Specifically, OMB guidance for Recovery Act awards, 2 CFR 176.210, Subpart D, states:
       To maximize the transparency and accountability of funds authorized under the
       American Recovery and Reinvestment Act of 2009 (Pub. L. 111-5) (Recovery Act) as
       required by Congress and in accordance with 2 CFR 215.21 "Uniform
       Administrative Requirements for Grants and Agreements" and OMB Circular A-
       102 Common Rules provisions, recipients agree to maintain records that identify
       adequately the source and application of Recovery Act funds.

In addition, NEA's General Terms incorporates OMB's Circular A-110 (Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations), which addresses the
requirement to have an adequate financial management system. The General Terms
states:

       There can be no overlapping project costs between Federal awards. Therefore,
       separate accounting records must be maintained for each award. OMB Circular A-
       110 (2 CFR 215), Section 2, and the "Common Rule," Section 1157.20, as applicable,
       establishes standards for financial management systems of recipients (i.e.,
       accounting systems, internal controls, allowable costs, cash management, etc.). The
       financial management systems of recipient organizations and their subrecipients
       must meet these standards.

Without policies and procedures in place to adequately identify the source and
application of Federal awards separately, expenditures charged to the award cannot be



                                                                                             3
determined. During our review, AFTA provided documentation to support salary
expenditures charged to the Recovery Act award.

We recommend that AFTA develop written policies and implement procedures that
ensure each Federal award is separately identified in its financial systems.

DEBARMENT AND SUSPENSION
AFTA did not have policies and procedures in place to ensure that contractors or
recipients were not debarred or suspended from receiving Federal assistance prior to the
payment or award of Federal funds.

NEA General Terms states:

       You must comply with requirements regarding debarment and suspension in Subpart C of 2
       CFR part 180, as adopted by the Arts Endowment in Title 2 CFR, Chapter 32, Part 3254.

Subpart C of 2 CFR part 180.300, OMB Guidelines to Agencies on Governmentwide
Debarment and Suspension (Nonprocurement), states, in part:

       You must verify that the person with whom you intend to do business is not
       excluded or disqualified. You do this by:

           (a) Checking the EPLS; or
           (b) Collecting a certification from that person if allowed by the Federal agency
               responsible for the transaction; or
           (c) Adding a clause or condition to the covered transaction with that person

We recommended that AFTA develop written policies and implement procedures to
ensure that contractors and recipients are not debarred or suspended from receiving
Federal assistance prior to the payment or award of Federal funds.

On August 2, 2012, AFTA submitted a response to our preliminary findings. The
response indicated that AFTA will implement a policy whereby all applications for
assistance will contain a signature certification by the applicant that they are eligible to
receive Federal assistance. Based on the action taken, this recommendation will remain
open until AFTA has submitted its final policy for debarment and suspension.

FINANCIAL POLICIES AND PROCEDURES
AFTA provided its policies and procedures for financial transactions; however, the
policies did not include procedures for the management of Federal awards. According to
OMB Circular A-110 Subpart C 215.21(b)(6), recipients of Federal awards should have:

       Written procedures for determining the reasonableness, allocability and allowability of
       costs in accordance with the provisions of the applicable Federal cost principles and the
       terms and conditions of the award.



                                                                                                   4
We recommended that AFTA develop written policies and implement procedures
applicable to the management of Federal awards. The policies could refer to NEA and
OMB guidance.

AFTA indicated in its August 2, 2012 response to our preliminary findings that an
additional section, "Federal Grant Management Procedures" will be added to its policies
and procedures. Based on the action taken, this recommendation will remain open until
AFTA has submitted its final policy for the management of Federal awards.

EXIT CONFERENCE
A preliminary exit conference was held with AFTA officials on July 17, 2012.
Subsequent to our site visit, a telephone exit conference was held with AFTA on August
30, 2012. AFTA officials concurred with our findings and recommendations.

                          RECOMMENDATIONS
We recommend that AFTA:

   1. Develop written policies and implement procedures that ensure each Federal
      award is separately identified in its financial systems.

   2. Develop written policies and implement procedures to ensure that contractors and
      recipients are not debarred or suspended from receiving Federal assistance prior
      to the payment or award of Federal funds.

   3. Develop written policies and implement procedures applicable to the management
      of Federal awards.




                                                                                          5
